No:

IN THE
SUPREME COURT OF THE UNITED STATES

GEORGE FERRER SANCHEZ,

Petitioner,

Vv.

UNITED STATES OF AMERICA,

Respondent.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

Petitioner, George Ferrer Sanchez, pursuant to SUP CT. R. 39.1, respectfully moves for leave

to file the accompanying petition for writ of certiorari in the Supreme Court of the United States

without payment of costs and to proceed in forma pauperis.

Petitioner was previously found financially unable to obtain counsel and undersigned counsel

was appointed to represent him by United States District Court for the Southern District of Florida,

under 18 U.S.C. ยง 3006A (the Criminal Justice Act). Therefore, in reliance upon RULE 39.1 and ยง

3006A(d)(6), Petitioner has not attached the affidavit which would otherwise be required by 28

US.C. ยง 1746.

Washington, DC
September 2021

Timothy Cone

Counsel for Petitioner Anderson Jean

1615 New Hampshire Avenue NW,4" floor (North)
Washington, DC 20009

Tel. (202) 862-4333
